r

!*

NOV 1 5 2020

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Elizabeth Morrison Crafty
Office of the State Appellate Defender

909 Water Tower Circle
Mt. Vernon IL 62864-6510

Gffetf of tht

Anpeito Defender

JiST. VEfsKOSl.'liuNOIS

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

November 18, 2020
In re:- People-State-of- Hlinois, respondent^. Michael Green, petitioner,-~
Leave to appeal, Appellate Court, Fifth District.

126392

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 12/23/2020.

Very truly yours,

Clerk of the Supreme Court

A

'•1.

FILED
July 31, 2020
GOURT CLERK

i

;

<

Appellate

i-

!■

5-17-0462

The PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
4

MICHAEL GREEN,
Defendant-Appellant.

■ V.

L-

Madison County
Trial Court/Agency No*: 04CF639
-r

■ - A.

:

ORDE R

A:

This cause coming on to be heard on appellant’s petition for rehearing and the court
-v

being advised in the premises:
7C7V

i

IT IS THEREFORE ORDERED that appellant’s petition for rehearing is DENIED.
■T\ . ■
'LL *7: •:■?>.
i,
T'i
, u /.A'

:

!

77
i

A

. i'A

3

t

-s

r

/

f

*

’

i.

2020 IL App (5th) 170462-U

NOTICE

NOTICE

Decision filed 06/10/20. The

This order was filed under

NO. 5-17-0462

text of this decision may be

Supreme Court Rule 23 and

changed or corrected prior to

may not be cited as precedent

the filing of a Petition for

by any party except in the

IN THE

Rehearing or the disposition of

limited circumstances allowed,

the same. .

under Rule 23(e)(1).

APPELLATE COURT OF ILLINOIS
FIFTH DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
V.

MICHAEL GREEN,
Defendant-Appellant.

f'LED

)
)

Appeal from the
Circuit Court of
Madison County.

)
)

No.

)
)
)
)

Honorable
Jennifer L. Hightower,
Judge, presiding.

)

JUH iq

PRESIDING JUSTICE WELCH delivered the judgment of the court.
Justices Cates and Moore concurred in the judgment.
ORDER

fl

Held: We affirm the order denying the defendant leave to file a successive
postconviction petition where he failed to satisfy the cause-and-prejudice test
and where he failed to establish a colorable claim of actual innocence.

12

The defendant, Michael Green, appeals from the Madison County circuit court’s

denial of his motion for leave to file a successive postconviction petition. For the following
reasons, we affirm.

1

m

I. BACKGROUND

13 .
14
15

A. Conviction and Direct Appeal
Following a jury trial, the defendant was convicted of the first-degree murder of

two-year-old Z.H. and sentenced to 60 years’ imprisonment. The defendant appealed,
arguing that his videotaped statement should have been suppressed and that the trial court
erred in refusing to instruct the jury on involuntary manslaughter. This court rejected the
defendant’s arguments and affirmed his conviction in People v. Green, No. 5-05-0582
„ , v ,(MaK;l'%2007) (unpublished order under Illinois Supreme Court Rule 23). The order
issued in that appeal included the following summary of the evidence adduced at the
defendant’s trial, in relevant part.

16

In February 2004, Z.H. was living with her paternal grandparents, JoAnne and

Stephen Harrison, in Alton, Illinois. Z.H. had been in their care since March 2003. Z.H.
occasionally stayed with her biological mother, Sharina Smallwood. In February 2004, the
Harrisons made arrangements to have Z.H. stay with Smallwood for a few days because
Mrs. Harrison was scheduled to have foot surgery and Mr. Harrison was concerned that he
could not adequately care for Z.H. and his wife. At the time, the Harrisons were unaware
that Smallwood was involved in a relationship with the defendant and that the defendant
was staying at Smallwood’s apartment. The Harrisons left Z.H. with Smallwood on
February 29, 2004, and they intended to take her home on March 6, 2004. Z.H. was in
good health and had no bruises on her face, head, or torso.

17

A tragic event occurred during the early morning hours of March 6, 2004, just hours

before Z.H. was to go back to her grandparents’ home. At about 2 a.m., Z.H. woke up
2

crying. The defendant was awakened by her crying and went into her room. Z.H., still
crying, asked for a drink of water. The defendant took Z.H. downstairs, passing his cousin,
Jason Green, and his cousin’s girlfriend in the stairwell. The defendant took Z.H. into the
kitchen. He picked her up and set her on the kitchen counter. The defendant told Z.H. to
stop crying. He said he was going to get her a drink. When Z.H. did not stop crying, the
defendant punched her two or three times in the stomach. Z.H. continued to cry. The
defendant then hit Z.H. in the face, knocking her off the counter and onto the concrete
floor. When the defendant picked Z.H. up, she was limp. Her head rolled to the side, and
she was making snoring sounds. The defendant took Z.H. outside to give her some air. He
then carried her back upstairs, again passing Jason and Jason’s girlfriend. Jason noted how
quickly the child had fallen asleep. The defendant put Z.H. back in her bed. He then went
back to sleep. When the defendant awoke the next afternoon, Z.H. was still in her bed.
She did not wake up. She was still snoring. Around 5 p.m. that afternoon, Smallwood
attempted to wake Z.H., but the child did not respond to her mother. She was limp, and
she continued to snore. At that point, Smallwood decided to take Z.H. to Alton Memorial
Hospital.
18

Dr. Alan Johnson, an emergency room physician, saw Z.H. when she arrived at the

hospital. When he examined Z.H., he noted that she was limp and that she did not respond
to stimuli. She was breathing on her own. Dr. Johnson testified.that he found bruising on
the child’s forehead, back, and abdomen and swelling in the lip area. He stated that the
injuries appeared fresh and recently inflicted. Dr. Johnson found that Z.H. was posturing
and that there was retinal hemorrhaging in her right eye. He testified that posturing is an
3

abnormal flexing of the extremities that indicates bruising or swelling of the brain. He
stated that retinal hemorrhaging is indicative of severe trauma, commonly seen in infants
with shaken baby syndrome. Dr. Johnson ordered an immediate transfer to a trauma center.

19

Z.H. was airlifted to St. Louis Children’s Hospital. She was initially evaluated by

Dr. Jeffrey Leonard, a pediatric neurosurgeon. Dr. Leonard found bruising to the child’s
face' scalp, abdomen, and back and retinal hemorrhages. Dr. Leonard noted that Z.H. had
a cough-and-gag reflex, which indicated that she still had some brain function. Dr. Leonard
ordered computerized tomography (CT) scans of Z.H.’s head and abdomen. The CT scan
of the head revealed swelling in both hemispheres of the brain and subdural hemorrhaging.
It also showed a nondisplaced fracture of the parietal bone, which is located in the back of
the skull. The CT scan of the abdomen revealed a large laceration of the child’s liver. A
plain X-ray showed an acute rib fracture. Dr. Leonard stated that the child’s sleepiness and
snoring were signs that she had elevated cranial pressure, which affects the respiratory
centers.
K 10

Dr. Leonard testified that he placed a small drain into the right ventricle of the brain

to drain spinal fluid and reduce the cranial pressure. He also prescribed medications to
control the pressure. The treatment was not successful. Z.H. progressively lost brain
function over a very short period of time. She was pronounced dead on March 8, 2004.
Dr. Leonard testified that the brain injuries that Z.H. sustained were not consistent with a
fall from the kitchen counter as described by the defendant. He stated that the brain injuries
and retinal hemorrhaging are indications of a violent shaking event and consistent with

4

shaken baby syndrome. He stated that other injuries, such as the liver laceration and the
broken rib, were indicators of an acute trauma.
f.ll

Dr. Raj Nanduri, an assistant medical examiner, conducted the postmortem

examination on Z.H.’s body and testified about her findings. Dr. Nanduri testified that she
noted a large area of bruising and marked swelling of the child’s right forehead and the
frontal area of the scalp. There was a larger area of bleeding noted beneath the right frontal
area of the scalp. Another large area of bleeding was observed at the back of the head. Dr.
Nanduri found subdural hemorrhages on both sides of the brain. She noted bruising and
swelling around the eyes and the lips. She found bleeding around the optic nerves and
retinal hemorrhages in both eyes. Dr. Nanduri testified that the injuries to the brain and
the bilateral retinal hemorrhages were indicative of violent shaking and that the extensive
bruising and swelling around the scalp and face were indicative of a blunt-force trauma,
f.12

Dr. Nanduri’s examination also revealed subcutaneous hemorrhages at the lower

back and ribs on the right side of the child’s body. Dr. Nanduri testified that the margins
of those wounds were not clearly defined, indicating that the area had been impacted by a
flat object or a fist. There were fractures to the sixth and seventh ribs on the right side of
the body. There was bleeding near the fractures and bruising to the lower lobe of the right
lung. Dr. Nanduri testified that the abdominal injuries appeared to be of very recent origin
and that they were indicative of blows to that area. Dr. Nanduri found a laceration of the
liver with acute hemorrhaging and inflammation at the site of the laceration. Additional
abdominal bleeding was noted. Dr. Nanduri testified that a blow or a kick to the abdomen
would cause the injuries that she had observed. Dr. Nanduri opined that Z.H. died from a
5

closed head injury and blunt trauma to the abdomen. She testified that Z.H. would be
classified as a battered child and that the death was a homicide and not an accident.
| 13

At the time of her death, Z.H. was 34 inches tall and weighed 41 pounds. The

defendant’s identification card indicated that he was 23 years old, that he was 69 inches
tall, and that he weighed 167 pounds.
^ 14

On March 7, 2004, the Alton police arrested the defendant on outstanding warrants

that were unrelated to Z.H.’s death. Sometime later that day, Detective Brantley learned
about the defendant’s arrest, so he went to the Alton jail to interview the defendant about
Z.H.’s injuries. The defendant was advised of his rights under Miranda v. Arizona, 384
U.S. 436 (1966); prior to the interview, he indicated that he understood his rights, and he
executed a signed waiver of his rights. During the interview, the defendant stated that he
did not know how Z.H. was injured.
15

Z.H. succumbed to her injuries on March 8, 2004. After learning of her death,

Detective Simmons returned to the jail to interview the defendant. The defendant was
again advised of his Miranda rights and executed a written waiver. During the interview,
the defendant stated that Z.H. was crying in the middle of the night, that he took her
i.

-

:

downstairs to get her a drink, that he set her on the counter next to the refrigerator, and that
he “spanked” her in the face when she would not stop crying. The defendant stated that
Z.H. fell off the counter and onto the floor. The defendant said that Z.H. was unconscious
and that she was snoring. He took her outside to get some air, but she did not wake up.
The,defendant said that he then carried her upstairs and laid her back in her bed.

6

H 16

On March 29,2004, Detective Brantley and Detective Simmons made arrangements

to interview the defendant, who had been transferred to the Madison County jail. The
detectives wanted to interview the defendant again because the defendant’s description of
the events leading to Z.H.’s injuries did not correspond with the autopsy findings. The
detectives advised the defendant of his Miranda rights, and he again signed a written
waiver. The defendant agreed to a videotaped interview. During the course of the
interview, the defendant acknowledged that he had punched Z.H. in the stomach several
times, to get her to stop crying, before he hit her in the face.
H17

B. The Defendant’s First Collateral Attack on the Judgment of Conviction

1JT8

In May 2008, the defendant filed with the circuit clerk a prose postconviction

petition under the Post-Conviction Hearing Act (Act) (725 ILCS 5/122-1 etseq. (West
2008)). In his first postconviction petition, the defendant argued that he was denied his
constitutional right to the effective assistance of counsel because counsel allowed a biased
juror to serve on his jury. The defendant also alleged that his trial counsel was ineffective
for failing to object to the State’s introduction of photographs from Z.H.’s autopsy. In June
2008, the circuit court summarily dismissed the petition as frivolous and patently without
merit. The court further found that the defendant’s claims were procedurally forfeited
because he failed to raise them on direct appeal and that they were rebutted by the record.
This court affirmed the judgment.in People v. Green, No. 5-08-0374 (Sept. 29, 2009)
(unpublished order under Illinois Supreme Court Rule 23).

7

119
^1 20

C. The Defendant’s Second Collateral Attack on the Judgment of Conviction
In May 2017, the defendant filed a pro se motion for leave to file a successive

postconviction petition.

He asserted that his sentence of 60 years’ imprisonment

constituted a de facto life sentence that violated the eighth amendment of the United States
Constitution (U.S. Const., amend. VIII) and the proportionate penalties clause of the
Illinois Constitution (Ill. Const. 1970, art. I, § 11) as applied to him because he was a young
adult when the murder occurred, and the trial court should have considered his youth in
rendering his sentence. In alleging that he had cause for failing to bring the successive
petition’s claims in the previous petition, the defendant relied on two cases, People v
Harris, 2016 IL App (1st) 141744 (Harris I), and People v. House, 2015 IL App (1st)
110580, which he asserted had only recently extended scientific evidence on the adolescent
brain development to young adults. He also alleged that prejudice resulted from failing to
bring these claims earlier in that he had rehabilitative potential and had held jobs, taken
various courses, and donated his time in prison.
Ij 21

In September 2017, the defendant filed a pro se “motion to supplement pending

‘successive’ post-conviction petition instanter,” asserting a claim of actual innocence based
on newly discovered evidence. Specifically, the defendant relied on “advances in medical
science regarding ‘shaken baby syndrome/abusive head trauma’ ’’ since his trial. The
defendant also alleged a claim of ineffective assistance'of counsel relating to such
evidence.
!j22

On November 2, 2017, the circuit court denied the defendant leave to file a

successive postconviction petition, finding that he failed to satisfy the prejudice element of
8

the cause-and-prejudice test and that he failed to present a cognizable claim of actual
innocence. The defendant appeals.

1J23
1.24

II. ANALYSIS
The Act provides a method for criminal defendants to assert that “in the proceedings

which resulted in his or her conviction there was a substantial denial of his or her rights
under the Constitution of the United States or of the State of Illinois or both.” 725 ILCS
5/122-l(a)(l) (West 2016). “A proceeding under the Act is a collateral attack on the
judgment of conviction.”. People v. Wrice, 2012 IL 111860, U 47. Although our supreme
court has made clear that the Act contemplates only one postconviction proceeding, the
court has provided in its case law two bases upon which the bar against successive
proceedings will be relaxed: (1) a showing of cause and prejudice or (2) a claim of actual
innocence. People v. Edwards, 2012 IL 111711, ^ 22-23.
H 25

Here, the defendant’s first claim alleges cause and prejudice, and his second claim

alleges actual innocence. We will discuss each of the defendant’s claims below.

If 26
1f 27

A. Cause and Prejudice
The defendant initially asserts that the circuit court erred in denying him leave to

file a successive postconviction petition, where he was 22 years old at the time of his
offense, and the trial court failed to consider his youth when imposing his 60-year sentence:
Thus, the defendant claims his sentence violated the eighth amendment to the United States
Constitution. The State responds that the defendant’s sentence was constitutional.
1f 28

When a defendant seeks to file a successive postconviction petition, he must first

obtain leave of court. 725 ILCS 5/122-1(1) (West 2016). Leave of court may be granted
9

only if defendant demonstrates “cause” for his failure to bring the claim in his initial
postconviction proceeding and “prejudice” resulting therefrom. See id. (codifying the
cause-and-prejudice test articulated in People v. Pitsonbarger, 205 Ill. 2d 444, 458-60
(2002)); Wrice, 2012 IL 111860, |48.' A defendant shows cause by identifying an
objective factor that impeded his ability to raise a specific claim in his initial postconviction
petition. 725 ILCS 5/122-l(f) (West 2016); Wrice, 2012 IL 111860,148. A defendant
shows prejudice by demonstrating that the claim not raised in his initial postconviction
petition so infected his trial that the resulting conviction or sentence violated due process.
Wrice, 2012 IL 111860,148. It is defendant’s burden to establish a prima facie showing
of cause and prejudice in order to be granted leave before further proceedings on his claims
can follow (People v. Bailey, 2017 IL 121450, 124; People v. Smith, 2014 IL 115946,
^ 30), and both elements must be satisfied for defendant to prevail (.People v. Guerrero,
2012 IL 112020, 115).

For the reasons that'follow, the defendant cannot establish

prejudice since his claims are not legally cognizable.
H 29

In Miller v. Alabama, 567 U.S. 460, 479 (2012), the United States Supreme Court

held that the eighth amendment to the’United States Constitution “forbids a sentencing
scheme that mandates life in prison without possibility of parole for juvenile offenders.”
In reaching this conclusion, the Court found that a mandatory sentence of “life without
parole for a juvenile precludes consideration” of the juvenile’s age and its “hallmark
features,” including the juvenile’s family and surrounding home environment, the extent
of the juvenile’s participation in the offense, the effects of familial or peer pressure, the
“inability to deal with police officers or prosecutors,” the incapacity to assist the juvenile’s
10

own attorneys, and the possibility of rehabilitation. Id. at 477-78. The Miller Court
announced that “a judge or jury must have the opportunity to consider mitigating
circumstances before imposing the harshest possible penalty for juveniles.” Id. at 489.
130

More recently, the Illinois Supreme Court has held that Miller applies to

discretionary life sentences without parole for juvenile defendants. People v. Holman,
2017 IL 120655, 1 40. However, our supreme court has declined to extend Miller to
offenders who are i8 years of age or older, finding that the Miller Court “confirmed that
the age of 18 is the legal line separating adults from juveniles” and that the protections of
Miller only apply to juvenile offenders. People v. Harris (.Harris II), 2018 IL 121932,
11 58-61. Whether a sentence is constitutional is a question of law, which we review
de novo. People v. Taylor, 2015 IL 117267, 111.
131

The defendant in this case received a 60-year sentence for first-degree murder,

which was within the applicable discretionary sentencing range. The parties do not dispute
that the defendant was 22 years old at the time of the offense and was therefore an adult.
Accordingly, Miller does not apply to the defendant’s sentence, and his sentence does not
violate the eighth amendment to the United States Constitution. See Harris II, 2018 IL
121932,11 58-61.
132

The defendant additionally argues that his sentence violated the proportionate

penalties clause of the Illinois Constitution. The States responds that this clause is also
inapplicable to the defendant’s sentence because he was an adult offender, and his life
sentence was discretionary and not mandatory.

11

33

The proportionate penalties clause of the Illinois Constitution provides that “[a] 11

penalties shall be determined both according to the seriousness of the offense and with the
objective of restoring the offender to useftil citizenship.” Ill. Const. 1970, art. I, § 11.
34

In asserting that his natural life sentence violated the proportionate penalties clause,

the defendant primarily relies on People v. House, 2019 IL App (1st) 110580-B (in which
a 19-year-old defendant received a mandatory life sentence). However, we find that House
does not apply. In the original opinion in House, and on remand from the supreme court,
the First District’s ruling was largely premised on the fact that defendant was sentenced on
a conviction that was based on a theory of accountability. House, 2015 IL App (1st)
110580; House, 2019 IL App (1st) 110580-B, f 32 (“As discussed throughout our previous
analysis, defendant’s conviction under the theory of accountability weighed heavily in our
conclusion that his mandatory natural life sentence shocked the moral conscience of the
community.”). The court emphasized the fact that the young defendant was not present at
the scene of the murder but received “the same mandatory sentence of natural life as
[the] codefendant who participated in the shooting of the victims,” while another
codefendant was released from the penitentiary during resentencing because he was 17
years old When the offense occurred. House, 2019 IL App (1st) 110580-B, ^] 46.
^ 35

The House court also noted that' a mandatory sentence does not afford a trial court

“any discretion if an offender is found guilty of triggering offenses,” and the “lack of
discretion afforded the trial court for the imposition of a mandatory life sentence is
especially relevant when the defendant is a young adult, over 18, but still not considered a
fully mature adult.” Id. t 60. The court therefore found that as applied to defendant, the
12

mandatory natural life sentencing statute at issue violated the proportionate penalties
clause. Id.

65-66. The matter was remanded for a new sentencing hearing so that the

trial court could have “the ability to consider the relevant mitigating factors prior to
imposing a sentence of such magnitude.” Id. H 65.
136

Here, unlike in House, the defendant was not convicted on a theory of

accountability, and his sentence was not mandatory. Rather, the defendant was convicted
for directly participating in the murder of Z.H., and he received a discretionary 60-year
sentence. Therefore, the reasoning of House does not apply here.
If 37

In his reply brief, the defendant asserts that the distinction between a mandatory and

discretionary sentence is not relevant to our analysis. However, the defendant supports this
assertion with a case that involved a juvenile offender bringing an eighth amendment Miller
challenge, not a proportionate penalties claim. See Holman, 2017 IL 120655 (in which
defendant was 17 years old at the time of the offense and brought an eighth amendment
claim pursuant to Miller on appeal). This case did not address whether an adult offender
could challenge a discretionary life sentence under the proportionate penalties clause. See
id.
H38

The defendant sets forth no legal authority supporting the assertion that a

discretionary 60-year sentence violates the proportionate penalties clause, when imposed
on an adult who was convicted for directly participating in a murder. To the contrary of
this assertion, Illinois appellate courts have recently found that even a mandatory life
sentence imposed on a young adult offender did not violate the proportionate penalties
clause, where defendant directly participated in the murders for which he was convicted.
13

See People v. White, 2020IL App (5th) 170345,

27-28 (distinguishing itself from House

on the grounds that the 20-year-old defendant was not convicted on a theory of
accountability); People v. Pittman, 2018 IL App (1st) 152030, ^ 37-40 (distinguishing
itself from House on the grounds that the 18-year-old defendant was not convicted on a
theory of accountability). Here, the 22-year-old defendant was convicted of directly
participating in the murder for which he was convicted, as the evidence at trial showed that
the defendant violently punched a 2-year-old child in the stomach multiple times, hit her
in the face, arid shook her causing her death.
1

H 39

;

'

i ■

Moreover, we note parenthetically that the record reveals the trial court considered

multiple circumstances regarding the defendant’s youth.

Specifically, the court was

presented with evidence regarding the defendant’s family history, including his mother’s
drug abuse and incarceration, his own history with drugs, and his criminal record as a
juvenile and as an adult. Further, defense counsel argued that the defendant’s age and
rehabilitative potential were reasons for the court to sentence the defendant to the minimum
sentence of 20 years’imprisonment.
40

The defendant further asserts that Harris II, 2018 IL 121932, supports a finding that

a young adult may challenge a discretionary life sentence based on the proportionate
penalties clause. However, the Illinois Supreme Court in Harris II never reached the merits
of this issue. In Harris II, defendant filed a direct appeal challenging his sentence based
on the proportionate penalties clause and eighth amendment. Id. f 17. The appellate court
found that defendant’s mandatory de facto life sentence violated the proportionate penalties
clause. Id. ^ 18. The State appealed to the supreme court, and defendant asserted that his
14

mandatory de facto life sentence violated the proportionate penalties clause of the Illinois
Constitution. Id. ffif 20, 36.
If 41

The supreme court in Harris II observed that defendant’s proportionate penalties

claim was an “as-applied challenge,” which required “a showing that the statute is
unconstitutional as it applies to the specific facts and circumstances of the challenging
party,

Id. ^flf 37-38. However, defendant failed to raise his as-applied constitutional

challenge in the trial court, “an evidentiary hearing was not held on his constitutional claim,
and the trial court did not make any findings of fact on defendant’s specific circumstances.”
Id. U 40. The court stated that “a reviewing court is not capable of making an as-applied
finding of unconstitutionality in the factual vacuum created by the absence of an
evidentiary hearing and findings of fact by the trial court.” (Internal quotation marks
omitted.) Id.]141. The court therefore concluded that defendant’s claim on direct appeal
was premature and “more appropriately raised in , another proceeding” that allows
presentation of evidence not contained in the record, such as a postconviction proceeding.
Id. fflf 46, 48.
142

We find Harris II does not support the defendant’s position on collateral appeal-

while the supreme court may have held that Harris’s as-applied proportionate penalties
claim was more appropriate for a proceeding other than a direct appeal, the court made no
finding as to how successful the claim would be in postconviction proceedings. Id.

48.

The court only held that where a defendant did not raise before the trial court an as-applied
challenge to his sentence based on the proportionate penalties clause, a reviewing court
could not have made a finding on the merits of the claim, since the record lacked any
15

information regarding defendant’s youth and the challenge was therefore premature for a
direct appeal. Id. fflj 46, 48.
43

“[L]eave of court to file a successive postconviction petition should be denied when

it is clear, from a review of the successive petition and the documentation submitted by the
petitioner, that the claims alleged by the petitioner fail as a matter of law or where the
successive petition with supporting documentation is insufficient to justify further
proceedings.”

Smith, 2014 IL 115946, ^ 35. . In his motion to file a successive

postconviction petition, the defendant raised no facts or circumstances regarding his youth
that were not already included in the record, presented at his sentencing hearing, and
considered by the trial court. Further, we find that the legal authority cited by the defendant
simply does not support his conclusion that a discretionary 60-year sentence imposed on a
22-year-old defendant, based on direct participation in the crime of first-degree murder and
imposed after the presentation of a presentence investigation report (PSI) and argument
regarding his youth and rehabilitative potential, could be found to violate the proportionate
penalties clause. The defendant’s claim fails as a matter of law. See People v. Handy,
2019 IL App (1st) 170213, ^ 41-42 (finding that the circuit court properly denied
defendant leave to file a successive postcoriviction petition where defendant’s life sentence
did not violate the proportionate penalties cause, because “defendant was an adult, an active
participant in the crimes, and received a discretionary sentence”).
144

In sum, we find that the defendant’s 60-year sentence does not violate the

proportionate penalties clause where (1) the defendant was not a juvenile at the time of the
offense; (2) he received a discretionary 60-year sentence; (3) his conviction was based on
16

his direct participation in the crime of first-degree murder, and not based on a theory of
accountability; and (4) the trial court imposed the defendant’s sentence after considering
information from the PSI and argument that concerned his youth and rehabilitative
potential. Because the defendant’s sentence violated neither the eighth amendment to the
United States Constitution nor the proportionate penalties clause of the Illinois
Constitution, we find the circuit court did not err in denying him leave to file a successive
postconviction petition.

145
If 46

B. Actual Innocence
The defendant also claims that he is entitled to further postconviction proceedings

on his claim of actual innocence based on the fact that “his conviction rested on testimony
about Shaken Baby Syndrome that could be deemed unreliable by a jury in light of the new
scientific and legal developments cited in his petition.” The State responds that the
defendant’s successive petition and supporting documentation fail to set forth a colorable
claim of actual innocence. For the reasons that follow, we agree with the State.
147

In addition to the cause-and-prejudice test set forth in the statute, there is a second

basis, established by the courts, on which a defendant can seek leave to file a successive
postconviction petition: where there has been a fundamental miscarriage of justice, which
can only be established where defendant makes a showing of actual innocence. Edwards,
2012IL 111711, if 23. A showing of actual innocence can only be made by the presentation
of newly discovered evidence of such conclusive character that it would probably change
the result on retrial. Id. if 32. A postconviction petitioner must submit with his motion for
leave to file a successive postconviction petition sufficient documentation to allow the
17

circuit court to determine whether such a showing has been made. Id. ^ 24. Thus, leave to
file a successive postconviction petition on the basis of a claim of actual innocence should
be granted only when the supporting documentation “raises the probability that it is more
likely than not that no reasonable juror would have convicted [defendant] in the light of
the new evidence.” (Internal quotation marks omitted.) Id.

148

“Substantively, the evidence in support of the claim must be newly discovered;

material and not merely cumulative; and ‘of such conclusive character that it would
probably change the result on retrial.

5 5?

People v. Ortiz, 235 Ill. 2d 319, 333 (2009)

(quoting People v. Morgan, 212 Ill. 2d 148, 154 (2004)). Whether newly discovered
evidence is of such conclusive character that it would probably change the result on retrial
is the most important element of any actual-innocence claim. People v. Washington, 171
Ill. 2d 475, 489 (1996). When considering whether newly discovered evidence is of such
conclusive character that it would probably change the result on retrial, “conclusive means
the evidence, when considered along with the trial evidence, would probably lead to a
different result.” People v. Coleman, 2013 IL 113307, f 96. Additionally, “[ejvidence of
actual innocence must support total vindication or exoneration, not merely present a
reasonable doubt.” People v. Adams, 2013 IL App (1st) 111081,

36. Here, we cannot

conclude that the evidence relied on by the defendant is of such conclusive character that
it would probably change the result on retrial.
49

The medical evidence presented at the defendant’s trial proved that Z.H. suffered a

fracture to her skull, swelling on the brain, retinal hemorrhaging, and swelling and bruising
of the head. She also suffered a broken rib, a laceration to the spleen, and internal bleeding
18

O

consistent with blows or kicks to the abdomen. The medical examiner testified that Z.H.
died from a closed head injury and blunt trauma to the abdomen. This conclusion was
consistent with the defendant’s own admission that he punched Z.H. in the stomach two or
three times and hit her in the head, knocking her off the counter and onto the concrete floor.
Z.H. was limp and unresponsive immediately after this fall, and she never recovered.
.1 50

Based on the foregoing, even if we were to assume arguendo that the defendant’s

successive petition and supporting documentation satisfy the other requirements of an
actual-innocence claim, we find that it is not of such conclusive character that it would
probably change the result on retrial. The evidence proffered by the defendant falls far
short of establishing his “total vindication or exoneration” (id.), and “when considered
along with the trial evidence,” we cannot conclude that the new research on shaken baby
syndrome “would probably lead to a different result” (Coleman, 2013 IL 113307, ^ 96).
“[Ajctual innocence requires that a defendant be free of liability not only for the crime of
conviction, but also of any related offenses.” (Internal quotation marks omitted.) People
v. Wingate, 2015 IL App (5th) 130189,

32. Thus, even if the defendant were able to

establish that the alleged scientific and legal developments constitutes newly discovered
evidence, his claim of actual innocence would still fail as a matter of law. See Edwards,

2012 IL 111711, m 40-41 (similarly finding).
t'51

Finally, the defendant contends that his trial counsel was ineffective for failing to

investigate and defend him using what research on shaken baby syndrome was available at
the time of trial and that his direct-appeal counsel was ineffective for failing to raise the
issue of trial counsel’s ineffectiveness on direct appeal.
19

^ 52

Claims of ineffective assistance of counsel are evaluated under the two-prong test

set forth in Strickland v. Washington, 466 U.S. 668, 687 (1984), and adopted by the
supreme court in People v. Albanese, 104 Ill. 2d 504, 525-26 (1984). To prevail under
Strickland, a defendant must demonstrate (1) that counsel’s performance was objectively
unreasonable under prevailing professional norms and (2) that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different. People v. Harris, 225 Ill. 2d 1, 20 (2007). A reasonable probability
that the result of the proceeding would have been different is a probability sufficient to
undermine confidence in the outcome of the proceeding. People v. Colon, 225 Ill. 2d 125,
135 (2007). Because a defendant’s ineffective-assistance-of-counsel claim will fail if
either prong of the Strickland test is not met, a reviewing court need not determine whether
counsel’s performance was deficient before determining whether he was prejudiced.
People v. Perry, 224 Ill. 2d 312, 342 (2007).
^ 53

We initially note that the defendant’s ineffective-assistance-of-counsel claims relate

to shaken baby syndrome research that existed at the time of the defendant’s trial and could
have been presented in his initial postconviction proceedings.

There was nothing

preventing the defendant from raising them in the first proceedings, in which he asserted
other claims of ineffective assistance of counsel. As such, the defendant has failed to
demonstrate cause for his failure to bring these claims in the initial postconviction
proceedings. See 725 ILCS 5/122-l(f) (West 2016); Wrice, 2012 IL 111860,148.
54

Furthermore, there can be no prejudice with respect to these claims. As previously

stated, the medical examiner testified at the defendant’s trial that Z.H. died from a closed
20

head injury and blunt trauma to the abdomen. This conclusion was supported by (1) the
medical evidence showing that Z.H. suffered a fracture to her skull, swelling on the brain,
retinal hemorrhaging, swelling and bruising of the head, a broken rib, a laceration to the
spleen, and internal bleeding consistent with blows or kicks to the abdomen, and (2) the
defendant’s own admission that he punched Z.H. in the stomach two or three times and hit
her in the head, knocking her off the counter and onto the concrete floor. In light of the
overwhelming evidence of the defendant’s guilt, independent of the shaken baby syndrome
diagnosis, we find that there is no reasonable probability that the result of the proceeding
would have been different if trial counsel had presented evidence challenging it.
Accordingly, trial counsel will not be found ineffective for failing to present such evidence,
and direct-appeal counsel will not be found ineffective for failing to raise the issue on direct
appeal.
H55
H 56

III. CONCLUSION
We affirm the denial of the defendant’s motion for leave to file a successive

postconviction petition.

^ 57

Affirmed.

21

■

